0

t

s

Appendix A
i

f

't

•t

Appendix A

DATE FILED: February 1, 2021

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203
Certiorari to the Court of Appeals, 2018CA1777
District Court, Douglas County, 2012CR271
Petitioner:

Supreme Court Case No:
2020SC767

Thomas Mark Hild,
v.
Respondent:
The People of the State of Colorado.
ORDER OF COURT

Upon consideration of the Petition for Writ of Certiorari to the Colorado
Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the
same hereby is, DENIED.

BY THE COURT, EN BANC, FEBRUARY 1,2021.

2102013126 0744 1-98-1002 2

*
/

1
<1

Appendix B

\

;

•f

18CA1777 Peo v Hild 07-30-2020
COLORADO COURT OF APPEALS

DATE FILED: July 30, 2020

Court of Appeals No. 18CA1777
Douglas County District Court No. 12CR271
Honorable Theresa M. Slade, Judge

The People of the State of Colorado,
Plaintiff-Appellee,
v.
Thomas Mark Hild,
Defendant-Appellant.

ORDERS AFFIRMED
Division VII
Opinion by JUDGE BROWN
Fox and Navarro, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced July 30, 2020

Philip J. Weiser, Attorney General, Melissa D. Allen, Senior Assistant Attorney
General, Denver, Colorado, for Plaintiff-Appellee
Thomas Mark Hild, Pro Se

1 1

A jury convicted Thomas Mark Hild of theft, conspiracy to

commit theft, second degree burglary, third degree burglary,
conspiracy to commit burglary, criminal mischief, and conspiracy to
commit criminal mischief. A division of this court affirmed Hild’s
convictions on direct appeal. See People v. Hild, (Colo. App. No.
13CA1361, Mar. 3, 2016) (not published pursuant to C.A.R. 35(f)).
12

Hild now appeals the postconviction court’s summary denial of

his Crim. P. 35(c) motion. We affirm.
I.
13

Background

In March 2012, ajewelry store in Parker, Colorado, was

burglarized. Based on video surveillance and car registration
records, police first linked Charles Williams and Daniel Delgado to
the burglary. Williams’ then-girlfriend told police that Williams
confessed to the burglary and that she had helped Williams pawn
the stolen jewelry.
14

After searching Williams’ phone records, police discovered

several calls between Williams and Hild during the time frame of the
burglary. Based on Hild’s Department of Motor Vehicles records,
police determined he matched the description of a male suspect
shown with Williams in the surveillance video. When questioned,
1

Hild denied being involved in the burglary but admitted to meeting
up with Williams near the jewelry store to purchase marijuana.
Police searched Hild’s vehicle and found drywall tools like those
used in the burglaiy.
15

Hild’s criminal history revealed convictions for four prior

burglaries of businesses.
16

After a jury found Hild guilty of all the substantive charges,

the trial court found him guilty of four habitual criminal counts and
sentenced him to forty-eight years in Department of Corrections’
(DOC) custody.
II.
17

Discussion

On appeal, Hild contends that the postconviction court erred

by summarily denying his Crim. P. 35(c) motion. Specifically, he
asserts that his trial counsel was ineffective for failing to (1) seek a
plea bargain; (2) call certain lay and expert witnesses; (3) object to
penitentiary packets admitted during the habitual criminal trial;
(4) seek a continuance to investigate late-disclosed physical
evidence; (5) object to admission of a recorded conversation between
Williams and his girlfriend as hearsay; and (6) adequately advise

2

him regarding his right to testify and object to the trial court's
Curtis advisement.1 We reject each contention in turn.
A.
If 8

Standard of Review

We review de novo the summary denial of a motion for

postconviction relief under Crim. P. 35(c). People v. Chipman, 2015
COA 142, K 25. A postconviction court may summarily deny a
Crim. P. 35(c) motion if (1) the motion, files, and record clearly
establish that the defendant is not entitled to relief; (2) the
allegations, even if true, do not provide a basis for relief; or (3) the
claims are bare and conclusory in nature. Id.; People v. Venzor, 121
P.3d 260, 262 (Colo. App. 2005).
B.
19

Ineffective Assistance of Counsel

A criminal defendant is constitutionally entitled to effective

assistance of counsel. U.S. Const, amends. VI, XIV; Colo. Const.
art. II, § 16; Strickland v. Washington, 466 U.S. 668, 687 (1984);
Ardolino v. People, 69 P.3d 73, 76 (Colo. 2003). To prevail on a

1 Hild has abandoned all other claims asserted in his postconviction
motions. People v. Rodriguez, 914 P.2d 230, 249 (Colo. 1996) (A
defendant’s “failure to specifically reassert on this appeal all of the
claims which the district court disposed of . . . constitutes a
conscious relinquishment of those claims which he does not
reassert.”); People v. Osorio, 170 P.3d 796, 801 (Colo. App. 2007).
3

claim of ineffective assistance of counsel, a defendant must show
that (1) counsel's performance was deficient and (2) the deficient
performance prejudiced the defense. Strickland, 466 U.S. at 687;
Dunlap v. People, 173 P.3d 1054, 1062-63 (Colo. 2007).
io

A defendant must prove each prong of the Strickland test by a

preponderance of the evidence. People v. Gamer, 2015 COA 174,
17. If a defendant fails to establish either prong of the Strickland
analysis, a court may deny the ineffective assistance claim without
addressing the other prong. People v. Washington, 2014 COA 41,

120.
1 11

Counsel's performance is deficient when it falls “below an

objective standard of reasonableness.” Dunlap, 173 P.3d at 1062
(quoting Strickland, 466 U.S. at 688). Courts “indulge a strong
presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance.” Gamer, ^ 15 (quoting
Strickland, 466 U.S. at 689). Determining whether counsel's
performance meets this standard requires “every effort be made to
eliminate the distorting effects of hindsight, to reconstruct the
circumstances of counsel's challenged conduct, and to evaluate the

4

conduct from counsel’s perspective at the time.” Strickland, 466
U.S. at 689.
% 12

To establish that counsel’s deficient performance prejudiced

the defense, a defendant must prove “there is a reasonable
probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Dunlap, 173 P.3d at
1063 (quoting Strickland, 466 U.S. at 694). A reasonable
probability is “a probability sufficient to undermine confidence in
the outcome.” Id. (quoting Strickland, 466 U.S. at 694).
1.
U 13

Failure to Seek a Plea Bargain

Hild contends that trial counsel was ineffective for failing to

seek a plea bargain. We disagree.
a.
Tf 14

Additional Background

In Hild’s pro se motion for postconviction relief, he alleged that

trial counsel was ineffective for not communicating a plea offer to
him. The postconviction court appointed counsel to advise whether
this claim had merit.2 After investigating the claim, postconviction

2 At the same time the postconviction court appointed counsel to
investigate this claim, it summarily denied all other claims in Hild’s
postconviction motion. The date of this order was July 27, 2017.
5

counsel informed the court that the claim did not have merit;
postconviction counsel’s investigation revealed that there was never
an offer made, so trial counsel had not failed to communicate an
offer to Hild.
1 15

However, postconviction counsel filed a supplemental motion

for postconviction relief, arguing that Hild’s trial counsel had
performed deficiently by failing to seek a plea bargain. Hild asserts
that he would have accepted a plea had one been available. The
postconviction court summarily denied the claim, finding that
counsel was not required to seek a plea offer and therefore counsel
had not performed deficiently.3
b.
I 16

Applicable Law

The Sixth Amendment guarantee of effective assistance of

counsel is not simply a trial right; rather, it extends to all critical
stages of a criminal prosecution. Key v. People, 865 P.2d 822, 825
(Colo. 1994). Plea negotiations are considered a critical stage and a
defendant is entitled to competent and effective representation
during such negotiations. Lafler v. Cooper, 566 U.S. 156, 162

3 On August 29, 2018, the postconviction court issued a second
order denying Hild’s request for postconviction relief.
6

(2012); Missouri v. Frye, 566 U.S. 134, 140 (2012); Carmichael v.
People, 206 P.3d 800, 805 (Colo. 2009).
| 17

In the plea bargain context, defense counsel does not

ordinarily have a duty to initiate plea negotiations. People v.
Sherman, 172 P.3d 911, 913 (Colo. App. 2006). But in some
circumstances, failure to initiate plea negotiations may constitute
ineffective assistance of counsel. Id. In evaluating such a claim,
the postconviction court should examine whether, “in light of the
particular facts and circumstances of the case, defense counsel's
failure to initiate plea negotiations fell below an objective standard
of reasonableness.” Id. In assessing prejudice, the court should
consider whether a defendant has shown a reasonable probability
that had defense counsel initiated plea negotiations (1) the
prosecution would have made a plea offer; (2) the defendant would
have accepted the offer; and (3) the court would have approved the
offer. Id. at 914.
c.

H 18

Analysis

The postconviction court concluded that “trial counsel was

under no obligation to seek a plea agreement on behalf of [Hild].”
Even assuming that trial counsel was required to initiate plea
7

j

negotiations under these circumstances, see id. at 913, the claim
fails because Hild does not allege sufficient facts to establish
prejudice under the Sherman test. He does not allege that the
prosecution would have made a plea offer had his counsel sought
one. He does not allege any corroborating evidence that he would
have accepted a plea offer. Carmichael, 206 P.3d at 807 (explaining
the second prong of the Sherman test requires some objective,
corroborating evidence that the defendant would have accepted the
plea offer; the defendant's testimony alone does not suffice). And he
does not allege that the trial court would have approved the offer.
Sherman, 172 P.3d at 913.
Tf 19

Accordingly, the postconviction court did not err by summarily

denying this claim of ineffective assistance of counsel.
2.
f 20

Failure to Call Certain Lay and Expert Witnesses

Hild contends that trial counsel was ineffective for failing to

call (1) his brother; (2) a cell phone expert; and (3) a video
surveillance expert as witnesses at trial. We disagree.
a.
% 21

Applicable Law

Generally, the decision to call certain witnesses and what

questions to ask those witnesses are matters of trial strategy. See
8

Davis v. People, 871 P.2d 769, 773 (Colo. 1994) (“Whether to call a
particular witness is a tactical decision, and, thus, a matter of
discretion for trial counsel.”); People v. Bradley, 25 P.3d 1271, 1275
(Colo. App. 2001) (“Mere disagreement as to trial strategy will not
support a claim for ineffective assistance of counsel.”).
b.
% 22

Hild’s Brother

First, Hild contends that trial counsel was ineffective for failing

to call Hild’s brother as a witness. Hild explains that his brother
would have rebutted Detective Ryan Wolffs “key testimony” that
Hild admitted to being in the area of the jeweliy store on the day of
the burglaiy to buy marijuana from Williams. Hild alleges that his
brother would have testified that Hild never made such statements
to the detective and explained why Hild was in possession of dry
wall tools like those used in the burglary.
'

123

However, trial counsel’s thorough cross-examination of

Detective Wolff suggested to the jury that Hild did not admit to
being near the jewelry store on the date of the burglary and that the
reason Hild was in possession of dry wall tools was because of his
work as a contractor. Hild does not explain how his brother’s
testimony on these two points would have altered the outcome of
9

the proceeding in light of counsel’s cross-examination and the other
evidence of guilt.
*f 24

Strickland’s performance prong requires that the defendant

show that counsel’s representation fell below an objective standard
of reasonableness. Dunlap, 173 P.3d at 1062. Indulging a strong
presumption that counsel’s performance was reasonable, as we are
required to do, id. at 1063, we conclude that Hild has not made this
showing. We also conclude that Hild has not demonstrated the
requisite prejudice under Strickland. Id.
1j 25

The postconviction court did not err by summarily denying

this claim of ineffective assistance of counsel.
c.
f 26

Cell Phone Expert

Second, Hild argues that his trial counsel was ineffective for

failing to call “readily available” experts to refute the People’s cell
phone evidence. He contends that a rebuttal expert could have
testified that cell phone signals are not always routed to the closest
tower, so “merely because a signal went through a certain tower is
not necessarily indicative of the person being in the immediate
area.” He does not identify an expert who would have testified this
way.
10

% 27

At trial, the People offered evidence that Hild’s cell phone was

in the vicinity of the jewelry store that was burglarized at the time of
the burglary. However, one of the People’s witnesses admitted that
a cell phone signal does not always hit the closest tower for a
variety of reasons. On cross-examination, trial counsel further
questioned the reliability of the People’s cell phone evidence.
% 28

The postconviction court determined that “it was well

established at trial the phone tower signal is not entirely reliable, so
there [was] no reason to believe rebuttal expert testimony would
beneficially highlight the signal as unreliable evidence” and
concluded that there was no deficient performance that prejudiced
Hild. We agree.
If 29

The point Hild contends should have been made through

rebuttal expert testimony was made at trial. The People’s own
witness admitted it. Hild failed to show a reasonable probability
that his trial counsel’s failure to call a rebuttal cell phone expert to
present cumulative evidence would have altered the outcome of the
proceeding. See Dunlap, 173 P.3d at 1063; see also Davis, 871 P.2d
at 773 (There is no ineffective assistance when counsel decides not

11

to pursue certain sources of information but, instead, to “rely on
other sources of information.”).
11 30

The postconviction court did not err by summarily denying

this claim of ineffective assistance of counsel.
d.
| 31

Video Surveillance Expert

Third, Hild argues that trial counsel was ineffective for failing

to call an expert to testify to the “unreliability of the video
surveillance evidence, i.e., not only couldn't Mr. Hild be identified
from said [evidence], but given the angle of the camera, it is difficult
to distinguish anything reliable about the other party in said
[evidence].” He does not identify a witness who would have testified
this way.
1 32

At trial, no witness identified Hild from the surveillance video;

rather, the video was used to establish that two men — Williams
and another man — burgled the jeweliy store. Other circumstantial
evidence established that Hild was that second man. Moreover, the
surveillance video was played for the jurors, who could judge for
themselves whether the man in the video was Hild. So, we fail to
see a reasonable probability that trial counsel’s failure to present a
witness to say that Hild could not be identified in the video would
12

t r\ /*<

have affected the outcome of the proceedings. See Dunlap, 173 P.3d
at 1063.
! 33

The postconviction court did not err by summarily denying

this claim of ineffective assistance of counsel.
3.
f 34

Failure to Object to Penitentiary Packets

Hild contends that trial counsel was deficient for failing to

object to admission of penitentiary packets during the habitual
criminal trial. We disagree.
a.
% 35

Additional Background

During the trial on the habitual offender counts, the

prosecution introduced penitentiary packets (pen packs) into
evidence to prove Hild’s prior felony convictions. Trial counsel did
not object. The prosecution also called Andrea Smith, who was
qualified as an expert in fingerprint classification and identification
to testify that the fingerprints in the pen packs matched Hild’s
fingerprints.
1 36

The trial court found, based at least in part on the pen packs,

that the records and testimony submitted by the People proved four
of the habitual criminal counts beyond a reasonable doubt.

13

b.
f 37

Applicable Law

In habitual criminal proceedings, the People bear the burden

of proving beyond a reasonable doubt that the accused is the
person named in the prior convictions. People v. Strock, 252 P.3d
1148, 1155 (Colo. App. 2010); seealso§ 18-1.3-803(4)(b), C.R.S.
2019. Identity may be proved by various methods, including by
expert testimony linking the defendant’s fingerprints to those
obtained during prior convictions. People v. Bemabei, 979 P.2d 26,
30 (Colo. App. 1998).
% 38

By statute, the prosecution may submit authenticated copies

of records of a defendant’s prior felony convictions and
incarcerations as prima facie evidence of the fact of the convictions
and the defendant’s identity. § 18-1.3-802, C.R.S. 2019; Campbell
v. People, 2020 CO 49, f 14 n.3. These records are commonly
called a pen pack. Campbell, K 14 n.3. A pen pack is a certified
record containing the mittimus, fingerprints, and photograph of
inmates discharged from DOC. Bemabei, 979 P.2d at 30.
c.
f 39

Analysis

The postconviction court summarily denied this claim,

explaining trial counsel was not ineffective for failing to object to
14

admissible evidence. We agree that the pen packs were admissible
evidence. § 18-1.3-802 (“Identification photographs and
fingerprints that are . . . part of the records kept at the place of
such party’s incarceration or by any custodian authorized by the
executive director of the department of corrections after sentencing
for any of such former convictions and judgments, shall be prima
facie evidence of the identity of such party and may be used in
evidence against him or her.”); see also Campbell, ^ 14 n.3. And we
agree that trial counsel does not render deficient performance by
failing to object when there is no basis for an objection. See People
v. Bossert, 722 P.2d 998, 1011 (Colo. 1986).
% 40

The postconviction court did not err by summarily denying

this claim of ineffective assistance of counsel.
4.
^ 41

Failure to Seek a Continuance to Investigate Late-Discovered
Physical Evidence
Hild contends that trial counsel was ineffective by failing to

seek a continuance to further investigate late-disclosed test results
related to a hair found at the crime scene. He argues that the
evidence would have allowed him to advance an alternate suspect
defense at trial. We disagree.

15

1

t

io

a.
If 42

Additional Background

At a pretrial hearing three days before trial, the People asked

the court to grant a continuance, in part based upon recent
consumptive testing of a hair from the scene of the crime. Hildas
trial counsel acknowledge having just received the results from that
test but stated that it did not change his readiness to proceed to
trial. The court denied the continuance.
1 43

At trial, the juiy was told that a hair was found at the scene

that did not match Hild; rather, it “came back to some unknown
female.” It was later determined that the hair belonged to a woman
with a connection to Williams.
b.
1! 44

Applicable Law

A defendant is entitled to pretrial investigation by counsel

sufficient to reveal potential defenses and facts relevant to guilt or
penalty. Davis, 871 P.2d at 773. Counsel's strategic choices made
after thorough investigation of the law and facts relevant to
plausible options are virtually unchallengeable. Ardolino, 69 P.3d
at 76. “A particular decision not to investigate must be directly
assessed for reasonableness in all the circumstances, applying a

16

AAA*T^AAA>A *4 4 A H OA 4 rt«7 4 A

heavy measure of deference to counsel's judgments.” Strickland,
466 U.S. at 691.
c.

f 45

Analysis

The postconviction court concluded that the identity of the

person to whom the hair belonged was not material. The court
noted that, on direct appeal, the division found that there were
many facts establishing that Hild participated in the burglary,
including (1) co-defendant Williams' statement to his then-girlfriend
implicating Hild; (2) the girlfriend’s admission to pawning items for
Williams; (3) Hild's admission to meeting Williams behind the strip
mall during the relevant time frame allegedly to purchase
marijuana; (4) the surveillance video that showed an unknown man
with Williams at the scene of the crime, which matched the
description of Hild; (5) cell phone records showing numerous phone
calls between Williams and Hild in Parker during the relevant time
frame; (6) dry wall tools found in Hild’s vehicle, including a dry wall
saw; (7) the fact that a marijuana transaction does not take several
hours; and (8) Hild's previous knowledge and method of
burglarizing businesses.

17

1 46

We agree with the postconviction court that Hild fails to

establish either deficient performance or prejudice here. See Davis,
871 P.2d at 773 (“Mere disagreement as to trial strategy . . . will not
support a claim of ineffectiveness.”). Had trial counsel obtained a
continuance to determine the identity of the person whose hair was
found at the crime scene, he would have discovered that the hair
belonged to a woman with some connection to Williams. We do not
see how that evidence would have allowed Hild to advance an
alternate suspect defense. The second suspect in the surveillance
video was a man, not a woman. Accordingly, an argument that the
second suspect was a female associate of Williams’ rather than Hild
would have made little sense — particularly in light of the other
circumstantial evidence linking Hild to the crime.
^ 47

The postconviction court did not err by summarily denying

this claim of ineffective assistance of counsel.
5.
t 48

Failure to Object to Hearsay

Hild contends that trial counsel performed deficiently by

failing to object to the admission of recorded conversations between
Williams and his then-girlfriend on the basis that the statements

18

were testimonial and their admission violated the Confrontation
Clause.
<f 49

At trial, recorded jail telephone calls between Williams and his

girlfriend were admitted into evidence over Hild’s trial counsel's
objection. A division of this court reviewed the admissibility of the
evidence on direct appeal and concluded the recordings were
properly admitted under the Confrontation Clause and CRE
804(b)(3). See Hild, No. 13CA1361, slip op. at 25.
K 50

To the extent Hild challenges the admissibility of the recorded

conversations, the postconviction court properly found Crim. P.
35(c)(3)(VI) bars this claim as successive. Under this rule, “[t]he
court shall deny any claim that was raised and resolved in a prior
appeal or postconviction proceeding on behalf of the same
defendant.” Crim. P. 35(c)(3)(VI). Although there are exceptions to
the rule, none applies here.
H 51

To the extent Hild argues his counsel should have made a

different objection, the record clearly establishes he is not entitled
to relief. Chipman, f 25. Regardless of the words trial counsel used
to object to admission of this evidence, the division on direct appeal
considered and rejected the arguments Hild makes now.
19

^ 52

The postconviction court did not err by summarily denying

this claim of ineffective assistance of counsel.
6.
% 53

Curtis Advisement

Hild makes three arguments related to his Curtis advisement:

(1) the trial court’s Curtis advisement was deficient; (2) trial counsel
was ineffective by failing to object to the deficient Curtis advisement;
and (3) trial counsel failed to properly advise Hild regarding his
right to testify. We reject these contentions.
a.
^ 54

Applicable Law

Criminal defendants have a constitutional right to testify in

their own defense. Moore v. People, 2014 CO 8, f 10; People v.
Curtis, 681 P.2d 504, 512 (Colo. 1984). A defendant may waive the
constitutional right to testify as long as the waiver is knowing,
voluntary, and intelligent. Curtis, 681 P.2d at 514.
1155

The trial court ensures that a waiver of the fundamental right

to testify is knowing, voluntary, and intelligent by advising the
defendant — on the record and outside the presence of the jury —
of five concepts: (1) a defendant has the right to testify; (2) if he or
she wants to testify, no one can prevent him or her from doing so;
(3) if a defendant testifies, the prosecution will be allowed to

20

cross-examine him or her; (4) if the defendant has been convicted of
a felony, the prosecutor will be entitled to ask about it; and (5) if the
felony conviction is disclosed to the jury, then the jury can be
instructed to consider it only as it bears upon the defendant’s
credibility. Id. at 514 -15.
156

Although failure to give a proper Curtis advisement is error,

there is no prescribed litany or formula that must be followed in
advising the defendant of the right to testify. See People v. Blehm,
983 P.2d 779, 787 (Colo. 1999); People v. Gray, 920 P.2d 787, 790
(Colo. 1996); People v. Chavez, 853 P.2d 1149, 1152 (Colo. 1993).
157

With respect to prior convictions, a defendant is sufficiently

advised so long as he is informed that prior convictions are
admissible only to impeach his credibility. Gray, 920 P.2d at
792-93. This is true even where habitual counts are charged
because “[a]n advisement regarding the prosecution’s continuing
duty to prove a defendant’s prior convictions merely repeats, in a
slightly different form, the instruction concerning the permissible
use of prior convictions.” Id. at 793. Accordingly, if a defendant is
sufficiently advised regarding the permissible limited use of prior

21

convictions, no additional advisement is necessaiy for a defendant
facing habitual charges. See id.
b.
158

Analysis

As relevant here, the trial court advised Hild “that if a felony

conviction is disclosed to the jury, the jury can then be instructed
to consider it only as it bears upon your credibility!.]” The court
then immediately asked Hild whether he understood this, to which
Hild responded, “Yes.”
159

Hild argues that he “had nothing to lose by testifying” and that

the only reason he did not testify was because he believed that if he
had admitted to having committed prior felonies while testifying on
his own behalf during his burglaiy trial, that admission would have
been allowed as proof of prior convictions at the bifurcated habitual
criminal trial. Hild contends that the trial court should have
advised him that, if he chose to testify, his prior convictions could
not be used against him in the habitual criminal phase of the trial.
We disagree.
| 60

We conclude that the trial court adequately advised Hild that if

a felony conviction was disclosed to the jury, “the jury can be
instructed to consider it only as it bears upon [Hild’s] credibility.”
22

See Curtis, 681 P.2d at 514. Hild was not entitled to a specific or
further advisement regarding the use of such convictions during
subsequent habitual criminal proceedings. See Gray, 920 P.2d at
793.
f 61

Because the Curtis advisement was not deficient, trial counsel

was not ineffective for failing to object to it. And, Hild offers no
authority to support his contention that trial counsel was required
to provide Hild with a more comprehensive advisement regarding
his right to testify than is constitutionally required under Curtis.
So, we reject that contention as well.
f 62

The postconviction court did not err by summarily denying

these claims.
7.
163

Other Contentions

To the extent Hild believes he raises any other contentions on

appeal, we conclude they are conclusory. He does not support
them with any meaningful argument or citation to authority, so we
do not address them. See, e.g., People v. Mendoza, 313 P.3d 637,
645 (Colo. App. 2011) (Because defendant “does not support his
assertion with any meaningful argument^] ... we do not address
it.”); People v. Osorio, 170 P.3d 796, 800 (Colo. App. 2007) (affirming
23

A

